September 28, 2010

PAUL E.VOGEL
PRESIDENT, MAILING AND SHIPPING SERVICES

SUBJECT: Management Advisory – Revenue Generation Strategic Report
         (Report Number MS-MA-10-002

This report presents the results of our review of revenue generation strategies for the
U.S. Postal Service (Project Number 10RG007MS000). Our objective was to suggest
strategic revenue generation opportunities for the Postal Service. This self-initiated
review addresses strategic risk. See Appendix A for additional information about this
review.

In addition to this report, our Risk Analysis Research Center is planning a white paper
which may include additional suggestions for generating revenue in the digital world.
We anticipate completing that project in fiscal year (FY) 2011.

The combination of electronic diversion and the recent recession has led to an
unprecedented decline in mail volume and a resulting decline in revenue for the Postal
Service.1 Without fundamental changes, management expects current trends to worsen
over the next decade. In addition, the Government Accountability Office (GAO) reported
that the Postal Service urgently needs to improve its financial viability primarily by taking
action to right-size operations, cut costs, and increase revenue.2

The Postal Service engaged a group of consultants led by McKinsey & Company to
identify revenue-generating ideas and assist in developing a 10-year plan to become
financially viable. To improve its financial position, the Postal Service is pursuing major
changes, including several cost-reduction initiatives, such as 5-day delivery, changing
retiree health benefit funding, and closing retail facilities. While these cost-saving
initiatives could help improve the Postal Service’s financial situation in the short term,
the Postal Service needs to also consider long-term revenue generation strategies if it
expects to continue fulfilling its mission of providing universal service. The Postal
Service has elected not to pursue some of the longer term revenue generating ideas
recommended by the consultants due to current constraints on operating capital.


1
    Assessment of U.S. Postal Service Future Business Model, November 2009, page 2.
2
    GAO-10-601T, U.S. Postal Service: Action Needed to Facilitate Financial Viability, April 22, 2010.
Revenue Generation Strategic Report                                                                    MS-MA-10-002




Conclusion

Strategic opportunities exist for the Postal Service to generate additional revenue from
new postal and non-postal products and services. We suggest opportunities for the
Postal Service to further evaluate or re-evaluate in the future to diversify and expand its
product and service offerings to ensure its financial viability. While several of the
recommended changes may require legislative changes, implementing these
suggestions could result in potential additional revenue3 of as much as $9.7 billion for
the Postal Service annually, while providing improved service4 to its customers.

Revenue Generation Opportunities

The Postal Service has the opportunity to generate additional revenue by offering new
postal and non-postal services. Mail volume and revenue are declining due to ongoing
electronic diversion and the recent widespread economic recession. Mail volume is
expected to drop from a high of 213 billion pieces in 2006 to 150 billion pieces by 2020,
with a sharp decline in First-Class Mail.5

Additionally, the Postal Accountability and Enhancement Act of 2006 (the Postal Act of
2006) prohibits the Postal Service from offering non-postal products and services and
caps price increases on market-dominant products at the rate of inflation,6 limiting
revenue growth from rate increases. As a result, the Postal Service is foregoing millions
of dollars of revenue that could be generated if it diversifies into non-postal services.




3
  Potential additional revenue generated from new sources. An example would be revenue that could be generated
by implementing a new marketing initiative. We did not calculate the potential cost to implement the suggested
initiatives.
4
  Initiatives aimed at expanding and improving the quality of and access to products and services that serve the entire
spectrum of the Postal Service customer base.
5
  Ensuring a Viable Postal Service for America: An Action Plan for the Future. U.S. Postal Service, March 2010,
page 7.
6
  The price cap applies separately to each market-dominant class of mail.




                                                          2
Revenue Generation Strategic Report                                                                       MS-MA-10-002




                  Source: Ensuring a Viable Postal Service for America: An Action Plan for the Future,
                  March 2010, slide 18.

Several international posts generate substantial revenue by offering non-postal products
and services. For example, the Japan Post provides financial services, including
savings accounts and insurance, as well as logistics services. In 2006, Germany’s
Deutsche Post DHL derived 76 percent of its revenue from the sale of non-postal
products and services, while Netherlands postal operator TNT Post derived 60 percent
of its revenue from non-postal products and services.7

The Postal Service should evaluate such opportunities as well. Based on feedback from
industry representatives and international posts, we identified 10 potential revenue
generating opportunities that could result in significant revenue impact in the long term
(see Table 1).8

                            Table 1. Revenue Generation Opportunities
               Products/Services That Can Be Offered Under Current Legislation
         1      Unaddressed mail service
         2      Post Office box customer information
         3      Selling advertising space in Postal Service outlets and on delivery vehicles
         4      Enhanced online ordering and package delivery

               Products/Services That May Require Legislative Change
         5      Digital identity; secure e-mail services
         6      Comprehensive micro-logistics service provider
         7      Entertainment: DVD/video games fulfillment
         8      In-person service center for community and government services
         9      Bill payment at Postal Service outlets
         10     Banking services


7
  Assessment of U.S. Postal Service Future Business Model, Appendix B, pages 1–2, November 2009.
8
  While some initiatives may not be feasible in the short term due to the Postal Service’s current financial situation,
they could represent significant revenue potential in the long term.




                                                            3
Revenue Generation Strategic Report                                                                       MS-MA-10-002



Implementing these initiatives could generate potential additional revenue of as much
as $9.7 billion annually for the Postal Service. Furthermore, these opportunities would
provide improved service to Postal Service customers by enabling access to a larger
range of relevant services. See Appendix B for our detailed analysis of this topic.

Management’s Actions

In March 2010, the Postal Service announced a 10-year plan to address its near-term
funding challenges and long-term financial health. The effort identified more than 30
potential sources of revenue growth for the Postal Service, some of which were
non-postal services.

The Postal Service’s current plan for pursuing revenue generating efforts is focused
more on immediate-term solutions. To meet FY 2009 economic challenges, the Postal
Service implemented several revenue generating initiatives such as the Standard Mail®
Volume Incentive Pricing Program (“Summer Sale”) and First-Class Mail Incentive
Pricing Program. These programs, which were intended to boost mail volume, offered
customers a postage rebate if their mail volume exceeded a specific threshold. To
increase Priority Mail® revenue, the Postal Service launched a promotional campaign to
promote the value of the Priority Mail Flat Rate Box9 and make customers aware of the
ease and convenience of flat-rate shipping.

As advised by its consultants, the Postal Service has elected not to pursue some of the
longer term revenue generating ideas that were identified, due to current constraints on
operating capital. We believe our ideas should be thoroughly evaluated and
implemented if deemed cost effective when operating capital becomes available in the
future.

We suggest the president, Mailing and Shipping Services:

1. Review the list of opportunities detailed in Appendix B and conduct feasibility studies
   to determine their revenue generating potential. Management should establish a
   mechanism to preserve ideas such as these for future consideration and seek
   regulatory and legislative change where necessary to pursue these ideas.

Management’s Comments

Management agreed with our conclusion that strategic opportunities exist for the Postal
Service to generate additional revenue from new postal and non-postal products and
services and stated the Postal Service has nearly all of our suggested opportunities
under consideration or in development. Management noted that our report did not
discuss net profitability and that although an opportunity may generate revenue, it may
not provide sufficient margin to make development, at present, a good investment of

9
    Using a Priority Mail Flat Rate Box, the Postal Service allows customers to ship at a flat rate anywhere in the U.S.




                                                             4
Revenue Generation Strategic Report                                           MS-MA-10-002



limited resources. Management further stated the Postal Service is pursuing legislative
and regulatory changes to enable it to provide appropriate products and services to 21st
century customers, make business decisions necessary to align costs and revenue, and
ultimately achieve financial health. See Appendix D for management’s comments, in
their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the suggestion in this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.

    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Corporate Audit and Response Management




                                            5
Revenue Generation Strategic Report                                           MS-MA-10-002



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970 required the Postal Service to become
self-sufficient and act as a business, relying on sales of its products and services to
finance its operations. This business model worked well for many years as mail volume
grew. The Postal Act of 2006 established a new regulatory structure and introduced
crucial requirements and restrictions, such as retiree health benefit pre-funding, limits
on price increases (price caps) by class of mail based on the Consumer Price Index,
and a restriction against offering non-postal products and services. This framework did
not anticipate the level of volume decline that has occurred over the past several years.

With a weakened economy and the diversion of mail to electronic communication, mail
volume and revenue continue to decline and, despite focused cost reductions and
increased efficiency, the Postal Service now faces a dire financial situation. Total mail
volume fell by 12.7 percent in FY 2009, with an accompanying operating revenue
decline of 9.1 percent. Even with a cost reduction of $1 billion or more every year since
2001 and $6.1 billion in FY 2009, the Postal Service could not fully offset the drop in
mail volume and revenue, and ended FY 2009 with a $3.8 billion net loss. Further, the
Postal Service is projected to lose $6.4 billion in FY 2010.




     Sources: Postal Service 2006 and 2009 Annual Reports

The Postal Service engaged a team of consultants — McKinsey & Company, Boston
Consulting Group, and Accenture, LLC — to assist in defining its future business model.
The objective of this effort was to formulate a 10-year plan to address both short-term
funding challenges and the long-term health and financial viability of the Postal Service.
Their analyses concluded that without significant changes to its business model,
cumulative losses will continue10 and, to reverse projected losses over the next 10 years
without cost to U.S. taxpayers, the Postal Service needs legislative and regulatory
changes that will provide greater speed and flexibility in responding to marketplace
dynamics.


10
     The amount of future losses is disputed.




                                                            6
Revenue Generation Strategic Report                                                                 MS-MA-10-002



To address its long-term financial problems and continue to thrive in the future, the
Postal Service needs to adopt innovative revenue generating strategies while improving
service quality and pricing efficiency. Change and additional flexibility are necessary if
the Postal Service is to respond to the rapidly changing environment, continue to meet
its universal service obligation, and remain a viable institution for many years to come.
These changes include offering new products and services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to suggest strategic revenue generation opportunities for the Postal
Service. To accomplish our objective, we:

    Surveyed international postal operators, mailing industry representatives, and other
     key stakeholders to identify potential revenue-generating ideas for the Postal
     Service.

    Evaluated the universe of ideas to select strategic opportunities to suggest to the
     Postal Service.

    Calculated the potential additional revenue for 10 ideas.

We conducted this review from December 2009 through September 2010 in accordance
with the Quality Standards for Inspections.11 We obtained Standard Mail volume and
revenue data and total Package Services revenue from the Postal Service’s FY 2009
Revenue, Pieces, and Weights (RPW) report. RPW reports present the official Postal
Service estimates of its revenue, volume, and weight by mail class, product, and major
special service. We obtained total and occupied Post Office Box information and
facilities with positive stamp sales from the Enterprise Data Warehouse (EDW).

We assessed the reliability of the computer-generated data used in our analyses and
concluded the data used were sufficiently reliable for the purposes of this report.
Specifically, we assessed the reliability of RPW data by reviewing the prior OIG report
titled Controls Over the Bulk Mail Revenue, Pieces, and Weight (BRPW) System
(Report Number CRR-AR-09-007). The report concluded that BRPW data contains
adequate edit controls and that management appropriately evaluates the reliability of
system-calculated values. Further, the audit did not identify any data inaccuracies. The
Postal Service uses BRPW data (along with other inputs) to prepare monthly, quarterly,
and annual RPW reports for the Postal Regulatory Commission, thus, we believe this
data to be a reliable indicator of the accuracy of the RPW volume and revenue data we
used. We assessed the reliability of EDW data by interviewing Postal Service officials.

11
   These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                        7
Revenue Generation Strategic Report                                                      MS-MA-10-002



For example, we interviewed Retail Products and Services personnel to determine the
total and occupied number of Post Office Boxes, and compared these amounts to the
EDW data. We discussed our observations and conclusions with management officials
on August 26, 2010, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                             Report       Final Report     Monetary
                    Report Title
                                                             Number           Date          Impact
  U.S. Postal Service, Strategies and Options to            GAO-10-455     4/12/2010         None
  Facilitate Progress toward Financial Viability
  U.S. Postal Service, Financial Challenges                GAO-10-191T     11/05/2009        None
  Continue, with Relatively Limited Results from
  Recent Revenue Generation Efforts
  U.S. Postal Service, Restructuring Urgently              GAO-09-958T      8/6/2009         None
  Needed to Achieve Financial Viability
  High-Risk Series, Restructuring the U.S. Postal          GAO-09-937SP    7/28/2009         None
  Service to Achieve Sustainable Financial Viability


In July 2009, the GAO added the Postal Service’s financial condition to the list of
high-risk areas needing attention by Congress and the executive branch to achieve
broad-based transformation. The GAO subsequently suggested the Postal Service
restructure to achieve financial viability and suggested changing the Postal Act of 2006
to provide the Postal Service with greater flexibility to generate revenue.

In April 2010, the GAO reported that the Postal Service has not been able to reduce
costs to offset declining mail volume and revenue loss. The GAO recommended
Congress consider providing financial relief, such as revising Postal Service retiree
health benefit funding and requiring any binding arbitration to consider the Postal
Service’s financial condition. In addition, the GAO suggested Congress consider setting
up a panel of experts to develop proposals for broader legislative and operational
reform. The Postal Service agreed with the report’s key findings but raised concerns
about the timing involved in establishing a panel.




                                                       8
Revenue Generation Strategic Report                                                  MS-MA-10-002



                            APPENDIX B: DETAILED ANALYSIS

Revenue Generation Opportunities

We developed a list of strategic revenue generation opportunities for the Postal Service
to further evaluate or re-evaluate in the long term. We solicited ideas from various
sources, including mailing associations, international posts, suppliers of postal systems,
and other leaders within the postal community. Analyses by the Postal Service’s
consultants suggest that its current financial situation and legal restrictions may limit its
ability to pursue some of these opportunities in the short term. However, we identified
10 revenue-generating ideas the Postal Service should preserve and consider
implementing over the long term (see Table 2).

                 Table 2. Revenue Generation Opportunities (Detailed)
    Opportunity       Description
    Products/Services That Can Be Offered Under Current Legislation
1   Unaddressed       Offer small businesses an easy and low cost means of distributing
    mail service      advertising flyers and circulars. Mailers could submit unaddressed
                      Standard Mail pieces to their local Post Offices for delivery by route or 5-
                      digit area.
2   Post Office box Offer real-time notification via e-mail, cell phone, etc., that mailpieces are
    customer          available in the customer’s Post Office box for pick up, and provide an
    information       image of the front of the mailpieces.
3   Selling           Rent space in Postal Service outlets and on delivery vehicles for
    advertising       customer advertising.
    space in Postal
    Service outlets
    and on delivery
    vehicles
4   Enhanced          Enable usps.com visitors to order catalogs online by specific name,
    online ordering category of merchandise or area of interest. Further customization could
    and package       allow customers to order catalogs in advance to meet their specific
    delivery          needs. In addition, the Postal Service could partner with an online gift
                      shop to offer merchandise for online shopping. The primary objective of
                      this partnership would be to increase parcel and catalog volumes.
    Products/Services That May Require Legislative Change
5   Digital identity, Provide secure electronic transactions between business users, public
    secure e-mail     entities, and private customers with features including:
    services          1) Verification of identity for online banking, online shopping, etc. (this
                      feature would be substituted for the functions of user name and
                      password).
                      2) A digital signature.
                      3) Integrity (the user would be notified of data amendments).
                      4) Confidentiality.

                        Also, provide an encrypted e-mail service and electronic registered mail
                        service transmission.




                                                 9
Revenue Generation Strategic Report                                                                     MS-MA-10-002



     Opportunity            Description
6    Comprehensive          Offer business customers complete end-to-end supply chain
     micro-logistics        management capability, from the origin manufacturer to the end
     service                consumer. Some value-added services include:
     provider               1) Multi-country consolidation.
                            2) Multi-mode international freight forwarding.
                            3) Destination port and customs services.
                            4) Electronic order processing.
                            5) Warehousing.
                            6) Inventory management.
                            7) Automated reporting and credit management.
                            8) Kitting12 and pick and pack of goods.13
                            9) Distribution and returns management.
7    Entertainment:         Offer space in Postal Service facilities for video and game kiosks.
     DVD/video              Revenue could be based on rental of space and/or transaction fees. The
     games                  Postal Service could also offer kiosk customers the opportunity to have
     fulfillment            their rentals delivered to them and/or returned to the kiosk by Postal
                            Service personnel.
8  In-person                Provide in-person service centers for people to access basic federal,
   service center           state, and local government services, including identity proofing, driver
   for community            license processing, tax and fine payment, and enrollment services.
   and                      Customers could use self-service kiosks to access other government
   government               services.
   services
9  Bill payment at          Use Postal Service outlets to pay utility bills such as gas, electricity, and
   Postal Service           telephone. This could also include insurance fees, mail order bills, and
   outlets                  tax bills. Payment could be sent electronically or by mail.
10 Banking                  Provide full-scale banking services, including money orders, deposits,
   services                 savings, credit, insurance, and automated teller machines.

While we did not estimate the potential cost of implementing these ideas, we estimated
the Postal Service could generate potential additional revenue of up to $9.7 billion
annually (see Table 3).




12
   Kitting is the process in which individually separate but related items are grouped, packaged, supplied, and
transported together as one unit.
13
   Pick and pack is a part of a complete supply chain management process that is commonly used in, but not limited
to, the retail distribution of goods. It entails processing small to large quantities of products — often truck or train
loads — and disassembling them, picking the relevant product for each destination, and re-packaging with a shipping
label affixed and an invoice included.




                                                           10
Revenue Generation Strategic Report                                           MS-MA-10-002




                     Table 3. Potential Additional Revenue (in Millions)
           Products/Services That Can Be Offered Under Current Legislation
            Unaddressed Mail Service                                    $156.1
            Post Office Box Customer Information                          69.0
            Selling Advertising Space in Postal Service Outlets
            and on Delivery Vehicles                                     357.9
            Enhanced Online Ordering and Package Delivery                307.8

           Products/Services That May Require Legislative Change
            Digital Identity; Secure e-Mail Services                     178.0
            Comprehensive Micro-logistics Service Provider             3,404.5
            Entertainment: DVD/Video Games Fulfillment                   187.6
            In-person Community/Government Services                      229.0
            Bill Payment at Postal Service Outlets                        22.3
            Banking Services                                           4,822.0

             Total                                                    $9,734.2

Unaddressed Mail Service

Unaddressed Mail Service would give small- and medium-sized businesses the
opportunity to send mail without names and addresses to potential customers in the
communities they serve using the Postal Service’s knowledge of how many mailpieces
are needed to cover a given delivery area. Businesses, such as pizza parlors, dry
cleaners, florists, dentists, and hardware stores, would pay the Postal Service to blanket
an area with their advertising circulars. Companies would bring their circulars to a local
post office for delivery at every stop on a letter carrier’s route, avoiding the cost of
purchasing mailing lists and commercial mail services.

The Postal Service had approximately 233,994 delivery routes at the end of FY 2009,14
consisting of city, rural, and highway contract routes. City and rural routes each average
more than 500 delivery points, while highway contract routes average 336 delivery
points (see Table 4).




14
     2009 Comprehensive Statement of Postal Operations, page 35.




                                                        11
Revenue Generation Strategic Report                                                                     MS-MA-10-002




                       Table 4. Postal Service Delivery Points and Routes
                                                 FY 2009 Year End
                                                                                            Average
                                                      Delivery             Total           Deliveries
              Delivery Routes by Type                  Points             Routes           Per Route
              City                                    87,670,966           150,779            581
              Rural                                   39,704,212            75,332            527
              Highway Contract Route                   2,649,132             7,883            336
                        Total                        130,024,310           233,994

With Unaddressed Mail Service, mailers could submit a minimum of 200 pieces in a
mailing to be distributed to certain areas or streets on a particular route. Table 5
represents additional increased annual revenue the Postal Service could generate by
implementing this service. We are basing the potential revenue on various levels of
piece mailings delivered to each nationwide route in 1 year.

                       Table 5. Potential Annual Additional Revenue from
                                   Unaddressed Mail Service
         Yearly                                  Mailpieces Per Mailing
       Nationwide                   (Potential Annual Additional Revenue in Millions)
        Mailings
       Per Route             200         250          300         350          400         450          500
             12             $78.1       $97.6       $117.1       $136.4      $155.3       $174.1      $193.0
             24            $156.1       $195.2      $234.2       $272.8      $310.6       $348.3      $386.0
             36            $234.2       $292.7      $351.3       $409.3      $465.8       $522.4      $579.0
             48            $312.2       $390.3      $468.4       $545.7      $621.1       $696.5      $772.0
             60            $390.3       $487.9      $585.5       $682.1      $776.4       $870.7      $965.0

If every route nationwide received two 200-piece mailings per month (24 mailings per
route in 1 year) at $.139 per piece,15 the Postal Service could capture potential
additional revenue of $156.1 million16 annually.

Post Office Box Customer Information

To increase the value of receiving mail through a Post Office box, the Postal Service
has much of the infrastructure in place to offer new value-added services, including
images of mailpieces and real-time notification via e-mail that a mailpiece has arrived
and is available for pickup in the customer’s Post Office box.

The Postal Service has a total of 21.6 million Post Office boxes, with 14.4 million17
occupied. Table 6 shows the potential annual additional revenue the Postal Service
15
   Piece rate is based on the Standard Mail carrier route letter rate of 3.3 ounces or less at $0.139 each.
16
   233,994 total delivery routes x 2 mailings x 200 pieces x 12 months x $.139 per piece = $156,120,797.
17
   Post Office box data (total and occupied) from EDW, as of FY 2009 year-end.




                                                          12
Revenue Generation Strategic Report                                                               MS-MA-10-002



could generate (based on various adoption rates and fee options) by implementing the
Post Office Box Customer Information service. If the Postal Service implements this
service and charges a monthly fee of $2, it could capture an additional $69 million18 in
annual revenue, assuming a 20 percent adoption rate.

                     Table 6. Potential Annual Additional Revenue from
                       Post Office Box Customer Information Service
                         14.4 Million Occupied Post Office Boxes
                     Potential Annual Additional Revenue (in Millions)
     Adoption                                Monthly Fee
       Rate          $1           $2          $3            $4         $5         $10           $20
       5%             $8.6       $17.3       $25.9          $34.5     $43.1       $86.3        $172.6
       10%           $17.3       $34.5       $51.8          $69.0     $86.3      $172.6        $345.2
       15%           $25.9       $51.8       $77.7       $103.6      $129.4      $258.9        $517.8
       20%           $34.5       $69.0     $103.6        $138.1      $172.6      $345.2        $690.3
       25%           $43.1       $86.3     $129.4        $172.6      $215.7      $431.5        $862.9
       30%           $51.8     $103.6      $155.3        $207.1      $258.9      $517.8       $1,035.5

This estimate does not include new Post Office box rentals from customers finding the
new service attractive. For an additional fee, customers could also request home
delivery of the mail in their Post Office box.

Selling Advertising Space in Postal Service Outlets and on Delivery Vehicles

With its extensive presence throughout the U.S., the Postal Service could generate
significant revenue by selling advertising space in its retail facilities and on postal
delivery and collection vehicles. Advertising options include posters; dispensers for
samples; leaflets, brochures, or promotional items available at the counter; and video
spots projected on a digital screen in front of the waiting queue.

If the Postal Service sold advertising space at $200 per month to three businesses at
each of its 30,065 retail locations,19 it would potentially generate $216.5 million20 in
additional revenue annually (see Table 7). The Postal Service has 196,445 delivery and
collection vehicles.21 If 20 percent (or 39,289) of the vehicles contained one
advertisement at $300 per month, the Postal Service would generate another $141.4
million22 in revenue (see Table 8), for a total of $357.9 million in additional annual
revenue from selling advertising space.



18
   14,382,102 occupied boxes x $2 fee x 12 months x 20 percent adoption rate = $69,034,090.
19
   Facilities with positive stamp sales – walk-in revenue (EDW), September 2009. 
20
   30,065 retail facilities x $200 per month x 12 months x 3 businesses = $216.5 million.
21
   2009 Comprehensive Statement on Postal Operations, page 34.
22
   39,289 vehicles x 1 advertisement x $300 per month x 12 months.




                                                       13
Revenue Generation Strategic Report                                                                MS-MA-10-002



            Table 7. Potential Annual Additional Revenue from Selling
                   Advertising Space in Postal Service Outlets
                         Potential Annual Additional Revenue (in Millions)
 Number of
                                  Generated at 30,065 Retail Sites
 Advertisers
                                           Monthly Fee
               $150      $175     $200    $225     $250      $275     $300                                  $325
     1          $54.1     $63.1    $72.2   $81.2    $90.2     $99.2 $108.2                                  $117.3
     2        $108.2 $126.3 $144.3 $162.4 $180.4 $198.4 $216.5                                              $234.5
     3        $162.4 $189.4 $216.5 $243.5 $270.6 $297.6 $324.7                                              $351.8
     4        $216.5 $252.5 $288.6 $324.7 $360.8 $396.9 $432.9                                              $469.0
     5        $270.6 $315.7 $360.8 $405.9 $451.0 $496.1 $541.2                                              $586.3
     6        $324.7 $378.8 $432.9 $487.1 $541.2 $595.3 $649.4                                              $703.5


             Table 8. Potential Annual Additional Revenue from Selling
                       Advertising Space on Delivery Vehicles
          Number of      Potential Annual Additional Revenue (in Millions)
          Advertisers     Generated from Advertising on 39,289 Vehicles
                                           Monthly Fee
                        $100     $150     $200     $250     $300      $350
              1          $47.1    $70.7    $94.3 $117.9 $141.4 $165.0
              2          $94.3 $141.4 $188.6 $235.7 $282.9 $330.0
              3        $141.4 $212.2 $282.9 $353.6 $424.3 $495.0

Enhanced Online Ordering and Package Delivery

The usps.com website has more than one million visitors daily and a high level of user
trust and brand recognition. The Postal Service can expand its website offerings by
allowing businesses to advertise on usps.com and enabling visitors to order catalogs by
specific name, category of merchandise, or area of interest. The website could operate
as an electronic shopping mall by offering customers a one-stop shopping source for
catalog shopping and delivery. Customers would benefit from having access to several
merchants from a single online location.

Catalogs make up 14.9 percent23 of all Standard Mail.24 In FY 2009, the Postal Service
delivered 12.3 billion catalogs25 at an average piece rate of $0.24.26 In developing base


23
   The Household Diary Study, Mail Use & Attitudes in FY 2009, Table A3-5. Data reflects household volumes only.
24
   FY 2009 total Standard Mail pieces equaled 82,706,211,000, per FY 2009 RPW report.
25
   82,706,211,000 total Standard Mail pieces x 14.9 percent = 12,323,225,439 catalogs.
26
   Unit revenue estimated based on revenue and volume data (revenue divided by volume) for Standard Mail
products that include catalogs: High-Density and Saturation Flats and Parcels, Carrier Route, and Flats (FY 2009
RPW report).




                                                        14
Revenue Generation Strategic Report                                                                     MS-MA-10-002



case27 mail volume projections for the Postal Service, the Boston Consulting Group
projected overall Standard Mail volumes would remain relatively flat over the next 10
years. However, they projected catalog volume would decline 29 percent by the year
2020, and did not expect any recovery to reverse this trend.

                     Table 9. Cumulative Rate of Catalog Volume Decline
                       Cumulative Rate of Catalog Volume Decline28
           29 Percent Overall Catalog Volume Decline over next 10 Years (by 2020)
Year       1         2        3          4           5           6          7           8           9             10
         3.4%     6.6%      9.8%      12.8%       15.7%       18.6%      21.3%       24.0%      26.5%        29.0%

By implementing online ordering, the Postal Service could generate additional volume
from both catalog and merchandise delivery and offset some of the projected volume
decline. Assuming online catalog ordering yields a 10 percent increase in catalog
volume, the Postage Service could generate additional revenue of $285.8 million, not
including the potential additional revenue generated from shipping charges resulting
from catalog merchandise orders and other online merchandise orders (see Table 10).
Total Package Services Mail revenue was $1.7 billion29 in FY 2009. Assuming a 2
percent increase in package volume (shipments) from catalog merchandise and other
online merchandise orders, the Postal Service could generate another $22 million in
revenue (see Table 11), for a total of $307.8 million30 in additional revenue from online
catalog ordering and package delivery.

Table 10. Potential Additional Revenue from Online Catalog Ordering and Delivery
                   Potential Additional Revenue due to Catalog Delivery (in Millions)
FY 2009 total Standard Mail pieces                                         82,706.2
FY 2009 catalog volume (total Standard Mail pieces x 14.9%)                12,323.2
Projected catalog volume decrease for year 1 (3.3669% x
12,323,225,439 catalogs)                                                        414.9
Catalog volume less projected volume decrease                                               11,908.3
Estimated 10% increase in volume due to online catalog
ordering                                                                                     1,190.8
Potential additional revenue (catalog volume increase due to
online catalog ordering x cost per piece ($.24))                                                            $285.8




27
   Business as usual scenario assuming no new revenue or cost savings initiatives, no regulatory or legislative
changes, and an economy that returns to a normal growth rate in 2 to 3 years.
28
   We estimated the cumulative volume decline per year based on Boston Consulting Group’s projection of a 29
percent decline in catalog volume by 2020.
29
   RPW Report, Revenue, FY 2009.
30
   $285.8 million from increased catalog deliveries + $22 million from increased merchandise deliveries.




                                                         15
Revenue Generation Strategic Report                                                                   MS-MA-10-002



         Table 11. Potential Additional Revenue from Delivery of Merchandise
                   Potential Additional Revenue due to Merchandise Delivery (in Millions)
        Package Services Mail:31                                        Revenue              Mailpieces
           Single-Piece Parcel Post                                             $699.3                  80.7
           Media and Library Mail                                                397.4                 140.1
                                           32
           Package Services Mail Fees                                               2.6                    0
              33
        Total                                                                 $1,099.3                 220.9
        Average revenue per piece
        ($1,099,252,050 divided by 220,855,000 pieces)                                                 $4.98
        2% increase in pieces (220,855,000 x 2%)                                                         4.4
        Potential additional revenue (4,417,100 pieces
        (package volume) x $4.98)                                                                      $22.0

Digital Identity and Secure E-mail Services

Digital identity enables private customers, business users, and government entities to
transmit secure electronic transactions. Features include verification of identity for
online banking and online shopping (substitutes for the functions of username and
password); digital signature;34 integrity;35 and confidential transmission. Australia Post’s
suite of identity services was a key driver of revenue growth for its agency services and
retail merchandise portfolio, which consists of products and services that complement
its core business activities. Revenue for the portfolio rose by 3.2 percent during 2009.

Post offices and other retail options generated $17.8 billion for the Postal Service in FY
2009.36 If the Postal Service offers digital identity services and, as a result, experiences
a 1 percent increase in retail revenue, it would generate $178 million37 in additional
revenue. Additionally, the Postal Service can offer a secure encrypted e-mail service
and electronic registered mail service to government entities, business users and
private customers for a fee.




31
   RPW Report, Revenue and Pieces, FY 2009.
32
   Total Package Services Mail revenue was $1,682,651,000, per RPW Report, FY 2009. Single-Piece Parcel Post
and Media and Library Mail were 65.2 percent of the total revenue from Package Services Mail (($699,269,000 +
$397,398,000) divided by $1,682,651,000). Total Package Services Mail Fees were $3,977,000. Therefore, Package
Services Mail Fees attributable to Single-Piece Parcel Post Mail and Media and Library Mail total $2,593,004
(3,977,000 x 65.2 percent).
33
   Includes the categories of Package Services Mail applicable to merchandise delivery as a result of the online
ordering and package delivery opportunity.
34
   Digital signature ensures the recipient that the message was created by a known sender and that it was not altered
in transit. It is used to authenticate the identity of the sender of a message or the signer of a document.
35
   Integrity provides assurance that the information can only be accessed or modified by those authorized to do so.
The user is notified of data amendments.
36
   U.S. Postal Service, 2009 Comprehensive Statement on Postal Operations, page 30.
37
   17.8 billion x 1 percent.




                                                         16
Revenue Generation Strategic Report                                                                    MS-MA-10-002



Comprehensive Micro-Logistics Service Provider

Logistics, which includes freight forwarding, warehouse, and transportation
management, along with other value-added services, is a large and growing market.
International posts operating in this market tend to offer a wide range of services.
Australia Post reported parcel and logistics revenue of $1.1 billion, 27 percent of total
revenue, for 2009. Posten Norden reported $906.9 million38 in logistics revenue, 25.9
percent of total revenue in 2009.

The Postal Service can use its network of post offices and processing facilities to offer
business customers, including small businesses, complete end-to-end supply chain
capability, from the origin manufacturer to the end consumer. The Postal Service
earned operating revenue of $68.1 billion39 in FY 2009. Assuming logistics services
increase its revenue by 5 percent, the Postal Service could generate additional revenue
of $3.4 billion annually.40

Entertainment: DVD/Video Games Fulfillment

The overall market for video, DVD, and game rentals was more than $8 billion41 in 2009
and is anticipated to continue its growing trend. The kiosk channel, which represents
about 14 percent of all rentals, grew by more than 120 percent in 2009.42 The Postal
Service can partner with video and game rental distributors to offer rentals through
kiosks installed in postal facilities. Revenue could be generated from a share of rental
transaction fees, as well as from leasing space for the kiosks.

With more than 24,000 kiosks installed in stores, a DVD rental distributor dispensed 9
million DVDs weekly for the first 3 months of 2010 and generated $774 million in
revenue from kiosk rentals in 2009.43 If the Postal Service enters into a 40 percent
partnership with a DVD rental distributor and has kiosks installed in its retail facilities, it
could generate $187.6 million44 annually in additional revenue from DVD rentals. We
based this calculation on having one kiosk installed in each of 30,065 facilities45 at
average annual revenue of $15,600 per kiosk.46 Table 12 represents the increased
annual revenue the Postal Service could generate by partnering with a DVD rental
distributor based on various partnership levels.

38
   Established on June 24, 2009, information for calendar year 2009 is pro forma. Posten Norden Annual Report
2009, pages 1 and 44.
39
   U.S. Postal Service, 2009 Annual Report, page 41.
40
   FY 2009 operating revenue of $68,090,000,000 x 5 percent.
41
   Industry revenue $8.2 billion, IBISWorld Industry Reports,
http://www.ibisworld.com/industry/default.aspx?indid=1370
42
   NGI-Solutions LLC, Task Order #RS-10-001R, page 8.
43
   The DVD rental distributor projects to have 30,000 kiosks installed by the end of 2010.  
44
   30,065 facilities x 1 kiosk per facility x $15,600 per kiosk = 469,014,000 gross revenue from kiosk rentals x 40
percent share of revenue = $187,605,000.
45
   Facilities with positive stamp sales – walk-in revenue, EDW, September 2009.
46
   The DVD rental distributor’s weekly revenue of $9 million ($1 per DVD), divided by their projected year-end kiosk
total of 30,000 = $300 average revenue per kiosk per week x 52 weeks = $15,600 annual revenue per kiosk.




                                                          17
Revenue Generation Strategic Report                                                                  MS-MA-10-002




                     Table 12: Potential Annual Additional Revenue from
                           Partnership with DVD Rental Distributor
                    Percentage of Rental                Potential Annual Additional
                         Revenue                           Revenue (in Millions)
                             5%                                        $23.5
                            10%                                        $46.9
                            15%                                        $70.4
                            20%                                        $93.8
                            25%                                       $117.3
                            30%                                       $140.7
                            35%                                       $164.2
                            40%                                       $187.6
                            45%                                       $211.1
                            50%                                       $234.5

In-Person Service Center for Community and Government Services

Several federal, state, and local government agencies currently operate in-person
service centers at one or more locations in each state. With the aging population,
there is a growing need to bring relevant government and community services closer
to those needing the service. The Postal Service can increase revenue by offering
these services through its vast network of retail facilities. This service could operate as
a one-stop outlet for people to come in person to a Postal Service facility to access
government services such as identification and enrollment services, driver license
processing, tax and fine payment, and self-service kiosks to access other agencies
remotely. Customers could also access the 1-800-ASK-USPS call center from retail
lobbies.

As an example of this service, the Postal Service could collaborate with local
Departments of Motor Vehicles to offer vehicle registration services at some of its retail
locations. According to National Transportation Statistics, 254.4 million highway
vehicles47 were registered in 2007. Table 13 represents the increased annual revenue
the Postal Service could generate by offering vehicle registration services. We based
the revenue on various adoption rates and service fee levels. Assuming the number of
highway vehicles remains at the 2007 level, 30 percent of these vehicles are registered
at Postal Service facilities, and the Postal Service charges a $3 service fee for each
vehicle registration transaction, the Postal Service could earn additional revenue of
$229 million48 annually.


47
   National Transportation Statistics, Table 1-11: Number of U.S. Aircraft, Vehicles, Vessels, and Other Conveyance,
updated April 2010.
48
   254,403,082 registered vehicles x 30 percent adoption x $3 service fee.




                                                         18
Revenue Generation Strategic Report                                                               MS-MA-10-002



      Table 13. Potential Annual Additional Revenue from Vehicle Registration
                       Highway Vehicles Registered in 2007: 254.4 Million
                        Potential Annual Additional Revenue (in Millions)
     Adoption                                     Yearly Fee
       Rate            $1        $2       $3        $4       $5          $10                           $20
        5%             $12.7    $25.4     $38.2     $50.9    $63.6        $127.2                        $254.4
       10%             $25.4    $50.9     $76.3   $101.8    $127.2        $254.4                        $508.8
       15%             $38.2    $76.3    $114.5   $152.6    $190.8        $381.6                        $763.2
       20%             $50.9   $101.8    $152.6   $203.5    $254.4        $508.8                      $1,017.6
       25%             $63.6   $127.2    $190.8   $254.4    $318.0        $636.0                      $1,272.0
       30%             $76.3   $152.6    $229.0   $305.3    $381.6        $763.2                      $1,526.4
       35%             $89.0   $178.1    $267.1   $356.2    $445.2        $890.4                      $1,780.8
       40%            $101.8   $203.5    $305.3   $407.0    $508.8     $1,017.6                       $2,035.2

Bill Payment at Postal Service Outlets

The Postal Service could provide bill payment services at its retail locations and accept
payments for utility companies, telecommunications providers, mail order companies,
government agencies, and banks. This service would allow the public to visit postal
retail facilities to pay bills issued by participating companies.

In 2009, Spain’s Correos Post processed 11.3 million bill payments for participating
companies.49 Assuming the Postal Service would process bill payments at a similar
rate, it would process 74.4 million bill payments50 per year based on the larger U.S.
population.51 By charging a transaction fee of $.30 per payment transaction, the Postal
Service would generate $22.3 million in additional revenue52 annually (see Table 14).




49
   Correos Annual Report 2009, page 40.
50
   11,276,800 bill payments processed by Correos Post x 659.8 percent =74,404,326.
51
   U.S. population as of July 20, 2010, was 309,779,356 (U.S. Census Bureau – U.S. & World Population Clocks).
Spain’s population as of January 1, 2010, was 46,951,532. (309,779,356 divided by 46,951,532 = 659.8 percent).
52
   74,404,326 bill payments x $.30 transaction fee = $22,321,298.




                                                       19
Revenue Generation Strategic Report                                                              MS-MA-10-002




                    Table 14. Potential Annual Additional Revenue from
                               Bill Payment Transaction Fees
                     Projected Number of Annual Bill Payments: 74,404,326
                     Bill Payment Charge Per            Potential Annual Additional
                            Transaction                    Revenue (in Millions)
                               $0.30                               $22.3
                               $0.50                               $37.2
                               $0.70                               $52.1
                               $0.90                               $67.0
                               $1.00                               $74.4
                               $1.10                               $81.8

Banking Services

Several opportunities exist for the Postal Service to generate revenue within the
banking and financial services industry. With its extensive network of more than 30,000
retail facilities, the Postal Service could offer space for a range of services such as
savings, checking, loans/consumer credit, international services, and insurance
products. The services can be carried out by bank employees assigned to postal
facilities or postal employees trained to provide a professional banking customer
experience. Additionally, putting automatic teller machines in retail lobbies would allow
customers self-service access to their bank accounts, for which the Postal Service could
charge a transaction fee.

The majority of international posts have expanded their product and service offerings to
include profitable banking and financial services. For example, the New Zealand Post
Group’s Kiwibank reported revenue of $803 million in 2009,53 an increase of 85 percent
since its formation in 2002, and its net profit after taxes is expected to rise from $51
million to $350 million54 between 2009 and 2020. Similarly, in 2009 La Banque Postale,
the banking subsidiary of France’s La Poste Group, reported a record net profit of $804
million55 from offering financial products and services through its 17,000 Postal Service
outlets and other channels.

The Postal Service can enter the retail banking market by partnering with banking
institutions to offer these services in its numerous retail facilities. In 2009, total interest
income earned by Federal Deposit Insurance Corporation (FDIC) insured commercial
banks was $482.2 billion.56 Assuming banking partnerships yield the Postal Service

53
   NGI-Solutions LLC, Task Order #RS-10-001R, page 60.
54
   NGI-Solutions LLC, Task Order #RS-10-001R, page 60.
55
   Bloomberg Businessweek, La Banque Postale Reports Earnings Results for 2009,
(http://investing.businessweek.com/research/stocks/private/snapshot.asp?privcapId=26972090), March 18, 2010.
56
   Federal Deposit Insurance Corporation, Commercial Banking Reports, Table CB05, Interest Income, FDIC-Insured
Commercial Banks, United States and Other Areas, Year-to-Date Activity, 1934–2009 (http://www2.fdic.gov/hsob/).




                                                      20
Revenue Generation Strategic Report                                           MS-MA-10-002



1 percent of the total FDIC-insured interest income, it could generate additional revenue
of $4.8 billion annually.57

Management should establish a method to preserve these 10 suggested
revenue-generating opportunities for future evaluation. The Postal Service should
conduct feasibility analyses of the suggestions and seek regulatory and legislative relief
where necessary to adopt feasible opportunities. These opportunities could result in
significant revenue impact as the Postal Service broadens its scope of business to
adapt in a rapidly changing environment.




57
     $482.2 billion x 1 percent.




                                            21
Revenue Generation Strategic Report                                           MS-MA-10-002




                          APPENDIX C: NON-MONETARY IMPACT

               Finding                     Impact Category              Amount
      Opportunities to Generate
                                      Potential Additional Revenue   $9,734,237,193
      Additional Revenue




                                              22
Revenue Generation Strategic Report                        MS-MA-10-002




                       APPENDIX D: MANAGEMENT’S COMMENTS




                                      23
